\

L.

No. 20-5497

IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS SIMPSON- PETITIONER
vs.

THE HAMILTON COUNTY COURT OF COMMON PLEAS
THE HONORABLE JUDGE ROBERT H. GORMAN
-RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

PETITION FOR REHEARING

Marcus Simpson pro se
781 Villas Circle
Cincinnati Ohio 45215
\\

RECEIVED
NOV 1 <1 2020

«■

Vi

PETITION
Now comes Marcus Simpson, Petitioner, pursuant to rule 44.2 and respectfully petitions the
Court for a rehearing of his motion to proceed in forma pauperis which was denied, and the petition
for certiorari, dismissed pursuant rule 39.8. on the 19th day of October 2020.

Respectfully'Submitted,
Marcus "Simpson pro se.,
781 Villas Circle
Cincinnati, Ohio 45215

TABLE OF AUTHORITIES CITED
CASES
PAGE
Brady v. Maryland' 373 U.S. 83 (1963)

2

Giles v. Maryland. 386 U.S. 66 (1966)

2-3

Gislio v. United States. 405 U.S. 150 (1972)

2-3

United States v. Agurs. 427 U.S. 97 (1976)

2-3

Navue v. Illinois. 360 U.S. 264,271 (1959)

2

United States v. Basley. 473 U.S. 667 (1985).

2-3

Lambert v. Blackwell 387 F. 3d 210, 242 ( 2004)

2

UNITED STATES CONSTITUTION

2

The Fourtheenth Amendment

2

6

• i

./

m
Constitutional Amendment XIV.
Section 1. All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection under law.
GROUNDS FOR REHEARING
(1). The conviction obtained by the State Attorney4 s withholding of exculpatory evidence in
violation of Brady v. Maryland, 373 U.S. 83 (1963).
(2).

The conviction obtained by the knowing use of perjured and false testimony by the State

Attorney, contrary to this Court’s findings in United States v. Asurs. 427 U.S. 97 (1976), Gislio v.
United States, 405 U.S. 150 (1972), Giles v. Maryland\ 386 U.S. 66 (1966), Navue v. Illinois, 360
U.S. 264, 271 (1959), and in violation of the Due Process guarantees under the Fourteenth
Amendment of The United States Constitution.
(3).

Petitioner was denied a fundamental fair trial.

Respectfully

argued

together,

Brady

v.

Maryland

373

U.S.

83

(1963)

held that a prosecutor, under the Fifth and Fourteenth Amendments, has a duty to disclose favorable
evidence to adefendant. A state violates the Fourteenth Amendment’s due process guarantee when it
knowingly presents or fails to correct false testimony in a criminal proceeding Navue v. Illinois 360
U.S 364,271 (1959) Gielio v. United States. 405 U.S. 150 (1972).

Consequently, “This Court has

consistently held that a conviction obtained by the knowing use of perjured testimony is
fundamentally unfair, and must be set aside if there is any reasonable likelihood that the false
testimony could have effected the judgment of the jury.“, United Stated v. Asurs. 427 U.S. 97,103
(1976), United States v. Bagiev, 473 U.S. 667 (1985).

a

XU

“[T]he same result obtains when the State, although not soliciting false evidence, allows it to go
uncorrected when it appears” Gislio. 405 U.S. at 153 (quoting Napue, 360 U.S. at 269). “A
conviction must be set aside even if the false testimony goes only to a witness’s credibility rather than
the defendant’s guilt.” Napue, 360 U.S. 270.

“The standard of review applicable to perjured

testimony claims is “strict’.” Agurs, 427 U.S at 104. This is so “not just because [those claims ]
involve prosecutorial misconduct, but more importantly because they involve a corruption of the
truth-seeking function of the trial process” Id
Accordingly, in order to establish his claim, Simpson must show that (1) Brunkel, the State’s
alleged victim, committed perjury, (2) the State’s Attorney knew or should have known that the
testimony Mr. Brunkel was false (3) the false testimony was not corrected, and (4) there is a
reasonable likelihood that the perjured testimony could have affected the judgment of the trial court.
Asurs.
Pursuant to rule 44.2 Petitioner submits the uncontested facts in this case are that a substantial
violation of Petitioner’s constitutional rights was caused by the State Attorney’s withholding of
evidence that proves Petitioner’s innocence, as set forth in the statement of the case within the
original petition and restated as if here.

3

2

CONCLUSION
Rehearing is respectfully prayed fore;
RespectfuH^Submitted
Marcui

lP:

to

Se.

X

No. 20-5497

IN THE
SUPREME COURT of THE UNITED STATES

MARCUS SIMPSON- PETITIONER
vs.

THE HAMILTON COUNTY COMMON PLEAS COURT,
THE HONORABLE JUDGE ROBERT H. GORMAN
- RESPONDENT.

cerifIcation

I, Marcus Simpson pro se, certifiy that this petition is in good ' di and hot for delay and
to the ground specified in paragraph 2 of this Court rule for such petitions.

Respectfully Submitted

Marcus Simplon pro se.,

•

